              FEDERAL BUREAU OF INVESTIGATION
                ANNUAL FINANCIAL STATEMENT
                      FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

      This audit report contains the Annual Financial Statement of the
Federal Bureau of Investigation (FBI) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the FBI’s audit in
accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2009 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2008, the FBI also received an unqualified
opinion on its financial statements (OIG Report No. 09-16).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. For FY 2009, the
Independent Auditors’ Report on Internal Control over Financial Reporting
identified no deficiencies.

      In the Independent Auditors’ Report on Compliance and Other Matters,
the auditors concluded that the FBI’s financial management systems did not
substantially comply with federal financial management system
requirements and the United States Standard General Ledger at the
transaction level as required by the Federal Financial Management
Improvement Act of 1996 (FFMIA). This noncompliance with FFMIA was also
reported for FY 2008.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the FBI’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the FBI’s financial management systems substantially complied with
the FFMIA, or conclusions on compliance with laws and regulations.
KPMG LLP is responsible for the attached auditors’ reports dated
November 3, 2009, and the conclusions expressed in the reports. However,
our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with generally accepted government auditing standards.
